             Office of Inspector General
             U.S. Small Business Administration    Memorandum
     To: 	   Darryl K. Hairston                                      Date:   April 15, 2010 

             Associate Administrator 

             Office of Management and Administration 

             lsi Original Signed 

  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Memorandum on the Accuracy of Recovery Act Contract Award Obligations Reported to
             the Federal Procurement Database System - Next Generation and Recovery.gov
             ROM-10-14

             This memorandum addresses concerns about the accuracy of Recovery Act
             contract award obligations reported to Recovery.gov by the Office of Business
             Operations (OBO). As part of the Office of the Inspector General's oversight
             responsibilities under the American Recovery and Reinvestment Act of 2009
             (Recovery Act), we continue to monitor the accuracy of information reported by
             the Small Business Administration (SBA) to Recovery.gov. During our audits of
             Recovery Act contracts, we identified discrepancies between the contract award
             data that the Agency has reported to Recovery.gov and the Federal Procurement
             Database System - Next Generation (FPDS-NG). Appendices I and II include
             complete lists of contract actions reported to Recovery.gov and FPDS-NG,
             respectively.

             Section 1554 of the Recovery Act states, "to the maximum extent possible,
             contracts funded under this Act shall be awarded as fixed price contracts through
             the use of competitive procedures." Each agency reports to Recovery.gov contract
             awards that are not competed and are not fixed price. These contract awards can
             be viewed on Recovery.gov, which provides transparency to taxpayers of the
             expenditure of Recovery Act funds. Each agency is responsible for reviewing all
             information that will appear on Recovery.gov before posting. Therefore, SBA
             must ensure complete and accurate reporting of Recovery Act funding to
             Recovery.gov.

             During our review of Agency reported data downloaded from Recovery.gov on
             March 19,2010, we determined that the Agency did not report all non-competitive
                                                                                   2

contract actions. We extracted all contracts from Recovery.gov that were non­
competitive, non-fixed price, or both and compared these contract actions to those
reported in a March 19,2010 download of FPDS-NG. We determined that the
Agency inaccurately reported eight Recovery Act contract actions. Six of the
eight contract actions reported to FPDS-NG as "not competed under SAP
[Simplified Acquisition Procedures]" were not listed on Recovery.gov. In
addition, five of the eight contract actions in FPDS-NG did not designate whether
the contracts were awarded as firm-fixed price. Further, three of the eight contract
actions in FPDS-NG were shown as not competed under SAP and did not
designate the contract type. Without the appropriate contract type designation, we
could not determine whether these contracts should have been reported to
Recovery.gov as contracts awarded as other than firm-fixed price. In total, eight
contract actions valued at nearly $1.83 million in obligations were not reported to
Recovery.gov as shown in Table 1 below.

   Table 1. Recovery Act Contracts Reported to FPDS-NG Not Reported on Recovery.gov

 Contract Number        Contractor         Competition Code     Contract    Contract
                                                                  Type        Value
 SBAOOOI             DRT Strategies,      Not Competed Under   Firm-Fixed    $1,287,701
 SBAHQ-09-D-0003     Inc.                 SAP                  Price
 SBAOO04             DRT Strategies,      Not Competed Under   Firm-Fixed     $256,000
 SBAHQ-09-D-0003     Inc.                 SAP                  Price
 SBAOO02             Digital              Full and Open        No Entry        $99,000
 SBAHQ-09-A-0022     Management Inc.      Competition
 SBAOO04             Isika Technologies   Competed Under       No Entry        $81,870
 SBAHQ-10-A-000I     Inc.                 SAP
 SBAOO02             Isika Technologies   Not Competed Under   No Entry        $52,532
 SBAHQ-10-A-000I     Inc.                 SAP
 SBAOO03             Isika Technologies   Not Competed Under   No Entry        $31,030
 SBAHQ-10-A-000I     Inc.                 SAP
 SBAOOOI             Isika Technologies   Not Competed Under   No Entry        $10,820
 SBAHQ-10-A-000I     Inc.                 SAP
 SBAHQ-1O-M-0116     Eastern Maine        Not Competed Under   Firm-Fixed       $7,500 

                     Development Corp.    SAP                  Price 



Additionally, two of the eight contract actions were inappropriately categorized by
the Agency in FPDS-NG because the contract values exceeded the simplified
acquisition threshold. According to the data dictionary describing contract
characteristics in FPDS-NG, the "not competed under SAP" denotes a contract
award that is below the simplified acquisition threshold of $100,000 established in
the Federal Acquisition Regulations (FAR) 13.003(b)(1). However, contract
number SBAHQ-09-D-0003, SBA0001 awarded to DRT Strategies for
                                                                                  3

$1,287,701, and contract number SBAHQ-09-D-0003, SBA0004 also awarded to
DRT Strategies for $256,000, were incorrectly classified because they exceeded
the simplified acquisition threshold.

SBA also awarded delivery order number SBAHQ-10-F-0032 on behalf of the
Office of the Inspector General for loan examination services that was
inaccurately characterized in FPDS-NG as a "non-competitive delivery order."
The Agency awarded this delivery order under the General Services
Administration Federal Supply Schedule. FAR 8.405, Ordering Requirements for
Federal Supply Schedules requires the contracting officer to solicit three
contractors that can satisfy the delivery order requirements. In making the award,
the contracting officer solicited four vendors to fulfill this requirement. As a
result, this delivery order should have been categorized as a competitive delivery
order in FPDS-NG because it met the competition requirements established in
FAR 8.405.

RECOMMENDATIONS

We recommend that the Associate Administrator for the Office of Management
and Administration:

   l. 	Reconcile Recovery Act contract awards reported to FPDS-NG, and
       Recovery.gov and report to Recovery.gov all non-competitive contract
       awards previously not reported to Recovery.gov, including the eight
       contract actions identified by the Office of Inspector General.

   2. 	 Review FPDS-NG and designate the appropriate contract type for the five
        Recovery Act contracts identified and report to Recovery.gov any Recovery
        Act contracts that were not awarded on a firm- fixed price basis.

   3. 	 Correct the competition characteristic recorded in FPDS-NG for contract
        number SBAHQ-10-F-0032 to show that the contract was a "competitive
        delivery order."

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On March 24,2010, we provided a draft of the report to SBA's Office of
Management and Administration for comment. On April 12, 2010, the Associate
Administrator for the Office of Management and Administration provided written
comments, which are contained in their entirety in Appendix III.
                                                                                  4

The Associate Administrator agreed with all of the recommendations and stated
SBA is committed to ensuring the accuracy of Recovery Act contract award data
reported to FPDS-NG and Recovery.gov.

The Associate Administrator's comments were responsive to the recommendation.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Form(s) 1824, Recommendation Action Sheet, within 30 days from
the date of this memorandum. Your decision should identify the specific action( s)
taken or planned for each recommendation and the target date( s) for completion.

We appreciate the courtesies and cooperation of the Small Business
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 205-{FOIAex2]Or Riccardo R. Buglisi, Director, Business
Development Programs Group at (202) 205-[FOIAex2]
                                                                                                    5

APPENDIX I.
              Agency Reported Contract Awards to Recovery.gov as of March 19,2010


Contract Number             Contractor          Extent Competed      Contract Type     Award Amount
SBAHQ-09-C-       Copper River Information      Not available for   Firm-fixed price   $1,827,567
0032              Technology, LLC,              competition


SBAHQ-09-C-       Acuity, Inc.                  Not available for   Firm-fixed price   $843,027
0038                                            competition
SBAHQ-10-F­       RER Financial Group, LLC      Non-competitive     Firm-fixed price   $538,401
0032                                            delivery order
SBAHQ-08-C­       KPMGLLP                       Non-competitive     Firm-fixed price   $518,933
0019                                            delivery order
SBAHQ-09-C-       Kauffman & Associates, Inc.   Not available for   Firm-fixed price   $491,457
0040                                            competition
SBAHQ-06-F-       Government Acquisitions       Non-competitive     Firm-fixed price   $245,390
0368              Incorporated                  delivery order


SBAOO01           Panum Telecom LLC             Not available for   Firm-fixed price   $123,696
SBAHQ-09-D­                                     competition
0001
SBAHQ-09-M-       Aspen Institute, Inc., The    Not competed        Firm-fixed price   $84,556
0313
SBAHQ-05-D­       TKC Integration Services,     Not competed        Firm-fixed price   $73,575
0009              LLC
SBAHQ-IO-M-       Federated IT, Inc.            Not available for   Firm-fixed price   $71,122
0059                                            competition
SBAHQ-08-M-       Innotion Enterprises Inc      Not available for   Firm-fixed price   $35,976
0350                                            competition
SBAHQ-IO-M-       Mulhearn Wilson               Not competed        Firm-fixed price   $9,675
0105              Constructors,Iinc.
SBAHQ-10-M-       Gary Houston Electric         Not competed        Firm-fixed price   $5,260
0104              Company, Inc.
SBAHQ-IO-M-       Roy Emerzian Vintage          Not competed        Firm-fixed price   $3,355
0096              Electric, Inc.
SBAHQ-09-C-       Copper River Information      Not available for   Firm-fixed price   $0
0032              Technology, LLC,              competition
                                                                                                           6

APPENDIX II. 


                  Recovery Act Contracts Reported to FPDS-NG as of March 19,2010

Contract Number         Vendor Name                Extent Competed       Type Of Contract   Action Obligation
SBAHQ09C0032       Copper River                 Not available for        Firm-fixed price   $1,827,567
                   Information Technology,      competition
                   LLC,
SBAOO01            DRT Strategies, Inc.         Not competed under sap   Firm-fixed price   $1,287,701
SBAHQ-09-D­
0003
SBAHQ09C0038       Acuity, Inc.                 Not available for        Firm-fixed price   $843,028
                                                competition
SBAHQlOF0032       RER Financial Group,         Non-competitive          Firm-fixed price   $538,401
GS23F0049J         LLC                          delivery order
SBAHQ08C0019       KPMGLLP                      Non-competitive          Firm-fixed price   $518,933
GS23F8127H                                      delivery order
SBAHQ09C0040 	     Kauffman & Associates,       Not available for        Firm-fixed price   $491,457
                   Inc.                         competition
SBAOO04            DRT Strategies, Inc.         Not competed under sap   Firm-fixed price   $256,000
SBAHQ-09-D­
0003
SBAHQ06F0368       Government Acquisitions      Non-competitive          Firm-fixed price   $245,391
GS35F0779J         Inc                          delivery order
SBAOO01            Panum Telecom LLC            Not available for        Firm-fixed price   $123,696
SBAHQ-09-D-                                     competition
0001
SBAOO02            Digital Management Inc       Full and open                               $99,000
SBAHQ-09-A-                                     competition
0022
SBAHQ10M0048 	     Credit Builders Alliance,    Competed under sap       Firm-fixed price   $87,760
                   Inc.
SBAHQ09M0313 	     Aspen Institute, Inc., The   Not competed             Firm-fixed price   $84,556

SBAOO04            Isika Technologies Inc       Competed under sap                          $81,870
SBAHQ-10-A­
0001
SBAHQ05DOO09 	     TKC Integration              Not competed             Firm-fixed price   $73,575
                   Services, LLC
SBAHQ08C0025       Colson Service Corp 	        Full and open            Firm-fixed price   $71,750
                                                competition
SBAHQ 1OM0059      Federated IT, Inc. 	         Not available for        Firm-fixed price   $71,122
                                                competition
SBAHQ09F0136       Four Points Technology,      Competitive delivery     Firm-fixed price   $53,619
GS35F0553P         LLC                          order
                                                                                                        7


          Recovery Act Contracts Reported to FPDS-NG as of March 19, 2010 (continued)

Contract Number        Vendor Name              Extent Competed       Type Of Contract   Action Obligation
SBAOO02           Isika Technologies Inc     Not competed under sap                      $52,532
SBAHQ-10-A­
0001
SBAHQ09F0160      North American Precis      Competitive delivery     Firm-fixed price   $48,000
GS23F0041S        Syndicate Incorporated     order


SBAHQ08M0350      Innotion Enterprises Inc   Not available for        Firm-fixed price   $35,976
                                             competition
SBAOO03           Isika Technologies Inc     Not competed under sap                      $31,030
SBAHQ-IO-A­
0001
SBAHQ10F0087      E F Kearney Limited        Full and open            Firm-fixed price   $29,431
GS10F0477P                                   competition
SBAOO01           Isika Technologies Inc     Not competed under sap                      $10,820
SBAHQ-IO-A­
0001
SBAHQ09CCOO03     TKC Integration            Full and open            Firm-fixed price   $9,672
                  Services, LLC              competition after
                                             exclusion of sources


SBAHQ09M0178      Audio Visual Integrators   Competed under sap       Firm-fixed price   $7,984
                  LLC
SBAHQ10M0116      Eastern Maine              Not competed under sap   Firm-fixed price   $7,500
                  Development
                  Corporation
SBAHQ1OM0104      Gary Houston Electric      Not competed             Firm-fixed price   $5,260
                  Company, Inc.


SBAHQ09CC0026     Edwards & Hill             Full and open            Firm-fixed price   $5,184
                  Communications, LLC        competition after
                                             exclusion of sources


SBAHQ1OM0096      Roy Emerzian Vintage       Not competed             Firm-fixed price   $3,355
                  Electric, Inc.


SBAHQ09C0032      Copper River               Not available for        Firm-fixed price   $0
                  Information Technology,    competition
                  LLC
SBAHQ09DOO03      DRT Strategies, Inc.       Not competed under sap   Firm-fixed price   $0

SBAHQ10AOO01      Isika Technologies Inc     Competed under sap       Firm-fixed price   $0
                                                                                   8

APPENDIX III. MANAGEMENT COMMENTS 





                               U.S. SMALL BUSINESS ADMINISTRATION
                                       WASHINGTON,   D.C. 20416




DATE:               April 12, 2010


TO: 	        Debra S. Ritt
             Assistant Inspector General for Auditing

FROM: 	      Darryl K. Hairston
             Associate Administrator
             Office of Management and Administration

SUBJECT: 	 Draft Memorandum on the Accuracy of Recovery Act Contract
           Award Obligations Reported to the Federal Procurement Database
           System - Next Generation and Recovery.Gov

Thank you for providing the opportunity to comment on this draft report.

The Small Business Administration is committed to ensuring the accuracy of
Recovery Act contract award data reported to the Federal Procurement Data System
(FPDS) and Recovery.gov. We appreciate your input and recommendations on the
issues provided in your report.

We agree with the recommendations set forth in your Draft Memorandum and will
take the necessary steps to address each.

Thank you again for your review.
